<html>
<title> - EXAMINING SYSTEMATIC MANAGEMENT, AND FISCAL CHALLENGES WITHIN THE DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
   EXAMINING SYSTEMATIC MANAGEMENT, AND FISCAL CHALLENGES WITHIN THE 
                         DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 21, 2017

                               __________

                           Serial No. 115-10

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         






      Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-576                   WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                    
                               
                               
                               
                               
                          COMMITTEE MEMBERSHIP
                     ONE HUNDRED FIFTEENTH CONGRESS
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, JR.,         JOHN CONYERS, JR., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, JR., 
TRENT FRANKS, Arizona                    Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             HAKEEM S. JEFFRIES, New York
TREY GOWDY, South Carolina           DAVID CICILLINE, Rhode Island
RAUL LABRADOR, Idaho                 ERIC SWALWELL, California
BLAKE FARENTHOLD, Texas              TED LIEU, California
DOUG COLLINS, Georgia                JAMIE RASKIN, Maryland
RON DeSANTIS, Florida                PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   BRAD SCHNEIDER, Illinois
JOHN RATCLIFFE, Texas
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona
          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
       
       
                            C O N T E N T S

                              ----------                              

                             MARCH 21, 2017

                           OPENING STATEMENTS

                                                                   Page
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................
The Honorable John Conyers, Jr., Michigan, Ranking Member, 
  Committee on the Judiciary.....................................

                               WITNESSES

The Honorable Michael E. Horowitz, Inspector General, United 
  States Department of Justice...................................
    Oral Statement...............................................
Diana Maurer, Director, Homeland Security and Justice Issues, 
  U.S. Government Accountability Office..........................
    Oral Statement...............................................

                        OFFICIAL HEARING RECORD

Questions for the record submitted to the Honorable Michael E. 
  Horowitz.......................................................
Responses to questions for the record submitted to Diana Maurer..
Statement submitted by the Honorable Sheila Jackson Lee, Texas, 
  Committee on the Judiciary. This material is available at the 
  Committee and can be accessed on the committee repository at:
      http://docs.house.gov/meetings/JU/JU00/20170321/105665/
        HHRG-115-JU00-MState-J000032-20170321.pdf

              ADDITIONAL MATERIAL SUBMITTED FOR THE RECORD

Material submitted by the Honorable Sheila Jackson Lee, Texas, 
  Committee on the Judiciary. This material is available at the 
  Committee and can be accessed on the committee repository at:
      http://docs.house.gov/meetings/JU/JU00/20170321/105665/
        HHRG-115-JU00-20170321-SD002.pdf


    EXAMINING SYSTEMIC MANAGEMENT AND FISCAL CHALLENGES WITHIN THE 
                         DEPARTMENT OF JUSTICE

                              ----------                              


                        TUESDAY, MARCH 21, 2017

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:00 p.m., in Room 
2141, Rayburn House Office Building, Hon. Bob Goodlatte 
[chairman of the committee] presiding.
    Present: Representatives Goodlatte, Chabot, Issa, Gohmert, 
Chaffetz, Marino, Collins, DeSantis, Buck, Roby, Johnson of 
Louisiana, Biggs, Coiners, Nadler, Lofgren, Jackson Lee, 
Johnson of Georgia, Jeffries, Cicilline, Jayapal, and 
Schneider.
    Staff Present: Shelley Husband, Staff Director; Branden 
Ritchie, Deputy Staff Director; Zach Somers, Parliamentarian 
and General Counsel; Stephanie Gadbois, Senior Counsel; Aaron 
Hiller, Minority Chief Oversight Counsel; Susan Jensen, 
Minority Senior Counsel; Veronica Eligan, Minority Professional 
Staff Member; and Regina Milledge-Brown, Minority Crime 
Detailee.
    Chairman Goodlatte. Good afternoon. The Judiciary Committee 
will come to order. Without objection, the chair is authorized 
to declare recesses of the committee at any time. We welcome 
everyone to this morning's hearing on Examining Systemic 
Management and Fiscal Challenges within the Department of 
Justice. I will begin by recognizing myself for an opening 
statement.
    The Department of Justice is comprised of approximately 40 
components, which together encompass a broad array of national 
security, law enforcement, and criminal justice 
responsibilities. Its mission: to enforce the law and defend 
the interests of the United States according to the law, to 
ensure public safety against threats, foreign and domestic, to 
provide Federal leadership in preventing and controlling crime, 
to seek just punishment for those guilty of unlawful behavior, 
and to ensure fair and impartial administration of justice for 
all Americans. That confirms the sacred duties entrusted to it 
by the American people.
    The Department of Justice's growing workload presents 
challenges for a Congress increasingly constrained by the 
contraction of discretionary budget authority. With each 
passing year, the rapid growth of mandatory outlays driven by 
entitlement programs squeezes resources available for critical 
Federal operations, many of which are anything but optional. 
Under the current C.R., the DOJ's discretionary budget is 
approximately $29 billion. It supports more than 117,000 
positions. Eight percent of those are attorneys; 20 percent are 
agents; 18 percent are correctional officers; 4 percent 
intelligence analysts, and the remaining 50 percent includes 
other analysts, technologies specialists, and security 
professionals.
    Operationally, law enforcement activities make up nearly 
half of DOJ's efforts, with prisons and detention representing 
30 percent of its work and litigation, 12 percent. Despite its 
vital mission and the ever-evolving nature of threats to the 
United States, the Department of Justice has not undergone a 
reauthorization since 2005. As a result, nearly all of the 
agency's authorizations for appropriations expired in 2009. 
Today's hearing is an opportunity for the committee to conduct 
initial review of DOJ to set the stage for more targeted 
hearings that will be the basis of a DOJ reauthorization 
project.
    The Government Accountability Office and DOJ's Office of 
the Inspector General are two very valuable resources for the 
Judiciary Committee, which takes its oversight responsibilities 
very seriously. The audits and evaluations these two 
organizations undertake can be Congress' best and sometimes 
only true measure of how well a Federal program or agency is 
operating. In recent years, the OIG has exposed or 
substantiated incidences of misconduct among Federal employees, 
rooted out and overseen the recovery of millions of dollars in 
improperly expended grant funding, and identified numerous 
costly inefficiencies. Meanwhile, GAO investigations have 
targeted the mismanagement of Federal resources, detected 
agency failures toc comply with Federal laws, and identified 
multiple opportunities for reducing duplication and overlap of 
Federal programs.
    It is for these reasons that I am pleased to welcome our 
two witnesses to the Judiciary Committee today. The Honorable 
Michael Horowitz is the Inspector General for the United States 
Department of Justice. Since 2012, Mr. Horowitz has overseen a 
nationwide workforce of more than 450 special agents, auditors, 
inspectors, attorneys, and support staff, whose mission is to 
detect and deter waste, fraud, and abuse and misconduct in DOJ 
programs and personnel, and to promote economy and efficiency 
in department operations. Since 2015, Director Horowitz has 
simultaneously served as chair of the Council of the Inspectors 
General on Integrity and Efficiency.
    Diana Maurer has been a director in the U.S. Government 
Accountability Office's Homeland Security and Justice Team 
since 2009, and currently leads DAO's work-reviewing, justice, 
and law enforcement issues. Director Maurer's recent work 
includes reports and testimonies on the Federal Prison System, 
the Secret Service, the Department of Justice's grant programs, 
the FBI's use of facial recognition technology, and audio video 
policies at the Supreme Court. Director Maurer has testified 
several times before congressional committees on national drug 
control policy, FBI whistleblower protection, DHS management, 
and nuclear smuggling, among other issues. Director Maurer's 
career began with the GAO back in 1990 at GAO's regional field 
office in Detroit.
    I look forward to hearing from both of you so that the 
committee may learn how Congress can best respond to the 
challenges you spotlight and work to achieve greater efficiency 
and accountability at the Department of Justice. Your 
meticulous efforts on behalf of all Americans, concern about 
how are tax dollars are being spent, are greatly appreciated, 
and I encourage you to keep up the fine work.
    It is now my pleasure to recognize the ranking member of 
the committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte. I join you in 
welcoming Inspector General Horowitz and Detroiter Diana Maurer 
as witnesses today.
    I understand, Chairman Goodlatte, that you have framed this 
hearing around management and fiscal challenges at the 
Department of Justice. Like our witnesses from the Government 
Accountability Office and the Office of Inspector General, I 
believe that meaningful oversight of the Department of Justice 
requires us all to be good stewards of taxpayer funds. There 
are many areas we can pursue, including the disproportionate 
amount of the department's budget that is consumed by prison 
spending. In addition, the Inspector General has issued a 
report specifying serious problems with privately-operated 
prisons which do not maintain the same level of safety and 
security as Bureau of Prisons facilities, and which do not 
provide an adequate level of rehabilitative services.
    These are troubling issues that many of my colleagues, 
including the gentlewoman from Texas, Sheila Jackson Lee, and I 
have focused on over the years. However, given the roles our 
witnesses play in more pressing developments at the Department 
of Justice, I would also like to focus my time today on a few 
more discreet issues. First, on the topic of fiscal management, 
I wonder if our witnesses can speak to the budget priorities of 
the Trump administration. I hope that you will feel free and 
able to do that. This committee has oversight of the United 
States Secret Service, an agency that provides protection to 
the President every time he travels to New York or Florida for 
the weekend, and to his family, as they travel the world to 
advance the interests of the Trump organization. It seems to me 
that the GAO is the right organization to evaluate the cost of 
that protection to the taxpayer, and to place that cost in the 
context of a proposed budget that makes deep cuts to a number 
of important programs.
    Secondly, on February 17, 2017, my colleague Mr. Jeffries 
and I wrote a letter which was joined by many of my colleagues, 
to you, Mr. Inspector General, and in that letter we asked your 
office to investigate two matters. One, whether the Trump 
administration has engaged in any improper effort to intimidate 
or threaten whistleblowers, and secondly, whether Attorney 
General Sessions has a conflict of interest that requires his 
recusal from any matter involving contact between Russian 
officials and the Trump campaign. I hope that you will discuss 
both those matters.
    Let me be clear: I do not condone the leaks of classified 
information to the press, but the President has gone out of his 
way to intimidate virtually any individual hoping to expose 
misconduct in the Trump administration, including, but not 
limited to, random searches of personal cell phones and general 
harassment via Twitter. I know that the Inspector General 
agrees that whistleblowers are key to identifying waste, fraud, 
and abuse, and I hope his office is looking into the matter.
    And finally, on March 16, 2017, I again wrote to the 
Inspector General, this time asking about improper contacts 
between the White House and the Department of Justice. We know 
that the White House Chief of Staff has called the Deputy 
Director of the FBI, asking them to come and publicly knock 
down reports he did not like. We also know that President Trump 
placed a phone call to Preet Bharara, former U.S. Attorney for 
the 7th District of New York, the day before the administration 
summarily fired all 46 sitting U.S. Attorneys. And we know that 
these calls are in direct violation of standing guidance at the 
Department of Justice, prohibiting contact between its 
investigators and the White House except in extraordinary 
circumstances. To their credit, none of these officials 
complied with pressure from the White House. Knowing the 
department's rules about such contacts, Mr. Bharara did not 
even take the call. Nevertheless, I feel that the White House 
has ignored this important policy, and that further 
investigation by the Inspector General is warranted.
    And so, I look forward to our discussion on these matters 
and others today, and I thank the chairman, and I yield back.
    Chairman Goodlatte. The chair thanks the gentleman, and 
would advise the committee that we have about 7 minutes 
remaining in this vote. There are three votes in this series, 
and the hearing will resume immediately following the votes, 
and I apologize to our witnesses for this delay, but it is 
unavoidable. Thank you.
    [Recess.]
    Chairman Goodlatte. The committee will reconvene. When the 
committee recessed, we were completing opening statements by 
the chairman ranking member. Without objection, all other 
members' opening statements will be made a part of the record.
    Chairman Goodlatte. And we welcome our distinguished 
witnesses and if you will please rise we will begin by swearing 
you in. Do you and each of you solemnly swear that the 
testimony that you are about to give shall be the truth, the 
whole truth, and nothing but the truth, so help you God? Thank 
you very much. You may be seated.
    Let the record show that the witnesses answered in the 
affirmative.
    Your written statement will be entered into the record in 
its entirety and we ask that you summarize your testimony in 5 
minutes. And you see the timing light in front of you on the 
table. When it switches from green to yellow, you will have 1 
minute to conclude your testimony. And when the light turns 
red, it signals your 5 minutes have expired. And Inspector 
General Horowitz, we will start with you. Welcome.

   STATEMENTS OF MICHAEL HOROWITZ, INSPECTOR GENERAL, UNITED 
   STATES DEPARTMENT OF JUSTICE; AND DIANA MAURER, DIRECTOR, 
              HOMELAND SECURITY AND JUSTICE ISSUES

                 STATEMENT OF MICHAEL HOROWITZ

    Mr. Horowitz. Thank you. Thank you, Mr. Chairman, Ranking 
Member Cummings--Member Conyers, I am sorry--and members of the 
committee. Thank you for inviting me to testify today, and 
thank you for your steadfast support for our oversight work and 
the strong bipartisan support last year for the IG Empowerment 
Act, which passed in December. In our most recent top 
management challenges report, we identified nine major 
management and fiscal challenges for the department.
    First, safeguarding national security, and ensuring privacy 
and civil liberties protections. Next, enhancing cybersecurity 
in an era of increasing threats. Three, managing an overcrowded 
Federal Prison System in an era of limited budgets and 
continuing security concerns. Next, strengthening the 
relationships between law enforcement and local communities 
through partnership and oversight. Next, helping to address 
violent crime through effective management of department 
antiviolence programs.
    Next, ensuring effective management and oversight of law 
enforcement and promoting public trust. Next, monitoring 
department contracts and grants. Then, managing human capital 
and promoting diversity with a workforce increasingly eligible 
to retire. And finally, using performance-based management to 
improve department programs.
    In these tight budget times, it is particularly important 
the department ensure it is using every dollar of taxpayer 
funds in the most effective and efficient way possible. Each 
year, our audits, reviews, and investigations result in our 
identifying wasteful spending, questioning costs, and 
recovering tens of millions of dollars. For example, this past 
year we reported on the DEA's and the Defense Department's 
wasteful spending of nearly $90 million on a plane that never 
flew any of the missions for which it was intended. We also 
identified over $100 million in health care spending the BOP 
could save each year by reimbursing outside healthcare 
providers at no more than the Medicare rate.
    The recommendations we have made over the years have led to 
significant improvements in department operations. The 
department must take prompt action to implement our open 
recommendations in a timely manner. The department also needs 
to ensure its strong support for whistleblowers. I have seen 
firsthand how whistleblowers have exposed waste and fraud and 
brought to light wrongdoing. Unfortunately, I have also seen 
instances of retaliation against whistleblowers.
    Whistleblowers perform an invaluable public service when 
they come forward with evidence of waste, fraud, abuse, and 
mismanagement and they should never face reprisal for doing so. 
My office will continue to do what we can to assist 
whistleblowers, address claims of whistleblower retaliation, 
and educate department employees on the importance of 
whistleblowing and on whistleblower rights. The department must 
do the same.
    Finally, let me mention one other challenge facing the 
department, and that is promoting public trust involving the 
oversight of its prosecutors. Several commentators and judges, 
including Judge Kozinski of the Ninth Circuit, have questioned 
whether there is sufficient independent oversight of 
prosecutors. While the OIG investigates alleged misconduct by 
department law enforcement agents, under the Inspector General 
Act, alleged misconduct by department attorneys when acting in 
their capacity as lawyers is instead handled by the 
department's Office of Professional Responsibility, an office 
that lacks the OIG statutory independence and does not provide 
the same level of transparency.
    The OIG has long questioned this differing treatment of 
lawyers. We continue to believe that public trust would be 
enhanced by giving our office the same authority that every 
other Federal Inspector General has to inspect allegations of 
misconduct by any agency employee including lawyers. Thank you.
    I look forward to working with this committee on these 
challenges and I would be pleased to answer any questions the 
committee may have.
    Chairman Goodlatte. Thank you, General Horowitz. Director 
Maurer, welcome.

                   STATEMENT OF DIANA MAURER

    Ms. Maurer. Thank you. Good afternoon Chairman Goodlatte, 
Ranking Member Conyers, and other members and staff. I am 
pleased to be here today to discuss the findings from our 
recent work conducted at the Department of Justice. DOJ's law 
enforcement, national security, and criminal justice missions 
are vital to the Nation. And like other departments, DOJ faces 
a challenging budget environment. Given this reality, it is 
especially important for the department to run its programs and 
activities in the most effective and efficient manner. My 
statement for the record today summarizes the findings from 18 
GAO reports that collectively provide 65 recommendations to 
help DOJ better manage its resources and enhance its programs.
    Our work highlights four themes for the committee to keep 
in mind as you oversee the department. First, implementing 
GAO's recommendations helps DOJ. In recent years, we have 
experienced some resistance, particularly in our 
recommendations related to law enforcement. Specifically, DOJ 
disagreed with or failed to take action on 12 of our 28 
recommendations related to law enforcement while only fully 
implementing five. DOJ has been more responsive to our 
recommendations on the care and custody of Federal prisoners 
and inmates fully, implementing seven of seventeen while 
actions are underway on eight of the others. DOJ has shown the 
most progress in the grants area, fully implementing 15 of our 
17 recommendations. Many of these were designed to help DOJ 
assess results and reduce the risk of duplication across the 
more than 200 grant programs it implements annually. DOJ 
largely did what we asked them to do and they have seen the 
benefits. For example, we recently reported good coordination 
of DOJ and HHS grants to combat human trafficking.
    A second theme is that DOJ often needs to develop a better 
understanding of whether its efforts are succeeding. The Smart 
on Crime Initiative has a series of measures to track progress, 
but in many cases, we found they were confusing or lacked 
measurable targets. The FBI's use of facial recognition 
technology disregards a key measure of accuracy, potentially 
limiting its ability to support investigations and 
unnecessarily involving innocent people. The Bureau of Prisons 
has increased its use of halfway houses and home confinement, 
but does not track the information it needs to help measure the 
outcomes of these alternatives to incarceration.
    A third theme from our work is that DOJ can improve the 
transparency of its programs and operations. Of course, the 
department has valid reasons for protecting ongoing 
investigations or prosecutorial strategy from disclosure, but 
we have found instances where DOJ should have been more 
transparent.
    For example, we found that the ATF aggregated specific 
kinds of information about the purchasers of firearms in 
violation of an Appropriation Act restriction. DOJ still has 
not issued a required report related to that finding to the 
President, the Congress, and the GAO. DEA needs to do more to 
address our recommendations to better inform distributors of 
controlled substances about DEA guidance and resources.
    DOJ can also do a better job more clearly explaining how it 
collects and plans to use the proceeds from billions of dollars 
in fines, fees, and penalties it collects annually. DOJ and the 
FBI have also not responded to the recommendations we made 2 
years ago to improve the handling of FBI whistleblower 
complaints.
    Finally, DOJ can do a better job bridging the gaps between 
similar or related programs. For example, the department 
currently finances two databases, which collect information on 
missing persons, but continues to refuse to explore options for 
sharing information between those systems.
    In conclusion, Mr. Chairman, we want DOJ to work well. We 
want the department to get the most from the $29 billion you 
the Congress appropriated for its use this year. And I know 
that is something the department is committed to as well. By 
implementing our recommendations, having a better handle on 
whether programs are working, being more transparent where it 
can, and better bridging the gaps between related programs DOJ 
can become more effective and efficient.
    Mr. Chairman, thank you for the opportunity to testify 
today. I look forward to your questions.
    Chairman Goodlatte. Thank you very much. We will now 
proceed under the 5-minute rule with questions. I will begin by 
recognizing myself.
    General Horowitz, the Executive Office for Immigration 
Review will be playing a large role in the implementation of 
new Presidential directives, especially as the Attorney General 
has been directed to immediately assign immigration judges to 
detention facilities and we have heard that the directive is to 
ensure that no courtroom in a detained facility is ever closed. 
So, my first question to you is does the Executive Office for 
Immigration Review have a sufficient number of immigration 
judges available to staff every detention facility?
    Mr. Horowitz. Mr. Chairman, while we have not done recent 
work on that figure, on that issue, when we did do work back in 
2012 in our report we found a number of significant challenges 
facing the Executive Office in how they handled cases, how long 
it took, whether they, in fact, had enough judges. And that is 
going to be a challenge, I think, for EOIR going forward.
    Chairman Goodlatte. What implications would the shortage of 
immigration judges have on the already growing backlog of non-
detained immigration cases pending nationwide?
    Mr. Horowitz. It has several different impacts. One is 
obviously it takes longer for a detainee whether they are in 
custody or not in custody to get before a judge so their case 
can be resolved. And in any instance, justice delayed is not 
something we want to see happen. So, you have that delay.
    You have increased costs if they are being detained by DHS, 
which has to house detainees who are incarcerated. And you then 
end up in a situation where the longer someone is in the 
country, whether in jail or not, it becomes more challenging to 
collect evidence, gather information, and reach a resolution.
    Chairman Goodlatte. Director Maurer, each of the 
President's Executive orders on border security immigration 
enforcement mandate that the Attorney General devote 
appropriate resources to ``establish prosecution guidelines to 
ensure that Federal prosecutors accord a high priority to 
prosecutions of offenses having a nexus to the southern 
border.'' At present, does each U.S. Attorney's Office have the 
necessary resources to prioritize criminal immigration 
prosecutions?
    Ms. Maurer. Certainly one of the primary challenges facing 
any U.S. Attorney or any prosecutor from that perspective is 
determining where to apply their scarce resources for 
investigations and prosecutions. We have not done our own 
independent work to assess the adequacy of the resources that 
are available to U.S. Attorneys, but changing in priorities 
like these does potentially present a challenge to them. 
Although it is not one that they are very used to having to 
handle.
    Chairman Goodlatte. Thank you. Inspector Horowitz, the 
House Judiciary Committee investigation found that the 
Department of Justice engaged in a practice of structuring 
settlements with financial institutions and others in a manner 
that required the institutions to make donations to third party 
non-victim groups. Can you contrast the level of DOJ oversight 
that takes place with respect to DOJ grant awardees and the 
recipients of mandatory donations from DOJ settlements?
    Mr. Horowitz. Certainly. For grant oversight, that is 
something that each grant-making agency within the department 
does. They are responsible for direct oversight, and of course, 
we are there to oversee their oversight efforts as well as how 
the grant recipient handled the money.
    For settlements, we generally do not have a role in 
oversight, because those are settlements reached by private--by 
the parties. The payments are made, oftentimes pursuant to a 
monitorship. And so, the oversight is often outsourced to a 
third-party monitor to watch over that. So, it is a completely 
different regime in terms of oversight.
    Chairman Goodlatte. And much less oversight with regard to 
the settlements, is it not?
    Mr. Horowitz. Well certainly it is not the kind of 
oversight that the Congress has set up that we do. And so, I do 
not know specifically what is done, but it is certainly not the 
same kind of oversight that we are doing.
    Chairman Goodlatte. One of the DOJ's mandatory donation 
settlements explicitly provided that ``the parties understand 
and agree that neither will monitor the use of the contribution 
by the recipient.'' Does this concern you from an oversight 
perspective?
    Mr. Horowitz. I do not have direct knowledge of that, but 
any time someone writes an agreement that there will not be 
monitoring and oversight that concerns me.
    Chairman Goodlatte. And would that be the case with an 
ordinary government grant?
    Mr. Horowitz. That would not be the case.
    Chairman Goodlatte. That would not be something----
    Mr. Horowitz. Absolutely not.
    Chairman Goodlatte [continuing]. Government agencies would 
do or you would condone?
    Mr. Horowitz. I can assure you we would be all over that if 
there was an effort to do it on the grant side.
    Chairman Goodlatte. So are these payments really then 
grants with no oversight?
    Mr. Horowitz. Well, I am not sure whether you can even call 
them grants frankly. But if they are being done with those kind 
of provisions, there seems to be no oversight.
    Chairman Goodlatte. And would it be appropriate for 
Department of Justice lawyers to draft mandatory donation 
provisions in a way that makes conservative leaning legal aid 
groups ineligible or vice versa?
    Mr. Horowitz. I would be concerned by a provision that did 
either, that conditioned grants on political positions.
    Chairman Goodlatte. What discipline would be appropriate if 
DOJ lawyers purposely drafted mandatory donation terms to keep 
conservative leaning legal aid groups from benefitting?
    Mr. Horowitz. Well, I will focus on either way. But 
obviously, you would want to look on what the provisions were 
in place that regulated that kind of conduct. It goes back 
somewhat to my opening statement, which is that would go 
presumably to the Office of Professional Responsibility not to 
the OIG for review. But certainly, if prosecutors were 
conditioning dollars on political positions, that would seem to 
be in violation of department policies and regulations.
    Chairman Goodlatte. Thank you very much. My time has 
expired. The chair recognizes the gentleman from New York, Mr. 
Nadler, for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman. Inspector General 
Horowitz, I suppose, on February 17th, along with Mr. Jeffries 
and several other members of this committee, along with the 
ranking member, Mr. Conyers, I wrote to ask you to investigate 
whether the Trump administration, this is a quote, ``Whether 
the Trump administration has engaged in any improper effort to 
intimidate or threaten whistleblowers under your jurisdiction 
or others who are seeking to expose misconduct by Trump 
administration officials.''
    Does your office plan to look into this matter? Is the 
conduct of the Trump administration so far with respect to 
``disloyal'' staff give you cause for concern?
    Mr. Horowitz. So, we are reviewing Congressman Cummings' 
and Congressman Jeffries' letter and considering what if, any, 
actions to take and we will be responding to that. What I can 
do is assure you and all the members of the committee that, as 
I said in my opening statement, we take whistleblowing 
seriously. And if we get reports of efforts to silence or 
intimidate whistleblowers, we will certainly consider how to 
respond to that action. But we are looking at the request.
    Mr. Nadler. Your answer is you are looking into it?
    Mr. Horowitz. Yes.
    Mr. Nadler. Okay, thank you. Last Friday, a number of us 
wrote to you again and asked you to investigate reports of 
several improper contacts between the White House and the 
Department of Justice. Every Attorney General since the Carter 
administration has had guidance in place to limit contact 
between independent investigators and the political leadership 
of the administration. It seems that both President Trump and 
his Chief of Staff have ignored this guidance. Can I count on 
your office to look into this matter?
    Mr. Horowitz. So, we just got the letter as you indicated, 
Congressman, on Friday and are looking at it. I obviously was 
aware from news reports of the allegations and we will get back 
to you on that and assess whether there is something for us to 
do. Keep in mind, and this is important to the discussion, the 
Inspector General's Office--my office--does not have oversight 
authority over the Executive Office of the President or White 
House entities. So, our oversight there would be as to any 
contacts by the FBI or other organizations from that side of 
the contact.
    Mr. Nadler. Well, you have jurisdiction over contacts to 
the FBI.
    Mr. Horowitz. We would not have authority--and this has 
played itself out in prior reviews of ours in administrations 
of both parties--which is our ability to get information from 
White House entities in reviews we have done, Fast and Furious, 
other reviews, has been denied because our jurisdiction would 
be over DOJ employees. That does not mean we cannot look at 
what the contacts were from the point of view from the FBI. But 
I just want to note that we do not have the authority on that 
side.
    Mr. Nadler. Does the fact that these conversations have 
taken place give you cause for concern?
    Mr. Horowitz. An allegation that there was communication 
inconsistent with department policies would be a cause for 
concern, Congressman.
    Mr. Nadler. Well, these are not allegations. These are 
undenied, are they not?
    Mr. Horowitz. Well, I say that because I have not reviewed 
them.
    Mr. Nadler. Okay.
    Mr. Horowitz. I have read the press reports about them.
    Mr. Nadler. Okay. To change the subject, your office has 
issued a number of reports about the department's use of 
privately operated contract prisons to confine Federal inmates. 
I note that in August of last year you found that, ``In most 
key areas, contract prisons incurred more safety and security 
incidents'' than comparable institutions run directly by the 
Bureau of Prisons. I think it is also fair to say that contract 
prisons have been rather lax, shall we say, in the medical 
area.
    I am concerned about indications from Attorney General 
Sessions that the department will continue to rely on these 
private facilities. Can you summarize your work in this are so 
far and give us some reasons why the department might need to 
take corrective action?
    Mr. Horowitz. Certainly. So, we issued, as you noted, the 
report last year about our oversight of how the BOP was 
overseeing contract facilities, looked at various measures, 
identified several, and concluded that when you looked at those 
measures, contract prisons, the track record of contract 
prisons was worse than the track record of the BOP. It compared 
unfavorably in the measures we looked at using the data the 
BOP----
    Mr. Nadler. Did you look at medical outcomes and medical 
treatment too?
    Mr. Horowitz. And, in addition, specifically as to medical 
issues, we identified concerns there as well including--and I 
was going to mention--several of the audits and contract audits 
we have done of specific private prisons where we have 
identified concerns and cost overcharges. The Reeves County 
review that we did 2 years ago comes to mind where we 
identified about $4 million that the government collected in 
charges that should not have occurred. We have an ongoing audit 
of the use by the Marshals Service of the Leavenworth facility. 
And in those, we have looked at staffing issues as well as 
outcomes and have found areas, in the Reeves Report, for 
example, in particular areas of concern.
    Mr. Nadler. You found that in medical outcomes there was a 
considerable difference?
    Mr. Horowitz. Well, what we found was the staffing of 
medical positions were not consistent with what the contracts 
required and so I am thinking of the Adams County work that we 
did last year, the contract audit that we issued, and the 
Reeves County audit that we issued before that.
    Mr. Nadler. My last question, very briefly, is you found 
that they were not providing as many medical staff members as 
the contract called for?
    Mr. Horowitz. Correct.
    Mr. Nadler. Have they, therefore, been required to disgorge 
some of their money back to the Federal Government?
    Mr. Horowitz. And that is part of the $4 million recovery 
that BOP gathered as a result of our audit. And it is certainly 
one of the recommendations that we have put forward is not just 
to worry about collecting the back pay but fixing the problem.
    Mr. Nadler. And have you noted differences in medical 
outcomes because of this?
    Mr. Horowitz. We did not go to that point, Congressman, as 
part of the audit.
    Mr. Nadler. Do you not think that that is a rather 
important point to go to?
    Mr. Horowitz. It is. Although I will say from our 
standpoint as we considered it, it would be challenging for us 
to look at a case file of an outcome. We would then have to get 
a different medical opinion and consider whether you could 
essentially determine the outcome might have been different had 
there been different medical treatment. And that, from our 
standpoint, would have been a challenge. I do not have doctors, 
for example, on my staff.
    Mr. Nadler. Okay. Thank you very much. My time is expired.
    Mr. Johnson of Louisiana [presiding]. Thank you. The chair 
recognizes Congressman Biggs from Arizona for 5 minutes.
    Mr. Biggs. Thank you, Mr. Chairman. Director, in an audit 
or an assessment that the GAO performed with regard to VOCA 
grants in April 2015, it was determined that grantees were 
spending less than 20 percent on average of each grant they 
received during the original 12-month project period. And I am 
wondering if you can tell us why that was, what steps are being 
taken to make sure the grantees are distributing the money 
appropriately.
    Ms. Maurer. Sure, absolutely. As a general proposition, it 
was taking the Department of Justice a long time to work 
through its own processes of getting the money from the 
Congress through its own system and out to the grantees. That 
was a big part of the problem. We made recommendations in our 
report that DOJ evaluate its administrative processes and 
figure out ways to streamline them so the grantees had more 
time to implement the grants. They are in the process of 
implementing those recommendations, but have not done so fully.
    Mr. Biggs. They have not done so yet?
    Ms. Maurer. They have not, not fully. No.
    Mr. Biggs. Are they in the process of doing them?
    Ms. Maurer. They are in the process, yes.
    Mr. Biggs. Okay. How much longer before they complete that 
process?
    Ms. Maurer. Hopefully as soon as possible, but that is 
really on them.
    Mr. Biggs. Okay. Thank you. And Inspector General, a 2015 
OIG report concluded that an Assistant U.S. Attorney mishandled 
sensitive but unclassified information by transmitting it to a 
personal email account. Was that attorney disciplined?
    Mr. Horowitz. It is my understanding that that attorney was 
disciplined. Although I note we do not handle the discipline. 
We send it to the component for them to decide the discipline.
    Mr. Biggs. Right. What is the appropriate discipline for a 
person----
    Mr. Horowitz. Well, frankly, one of the issues we have 
found over the years is that the department handles discipline 
differently depending on the components. And it is a 
recommendation we have made in the past about trying to get 
more consistent tables in place or other policies in place. And 
so, I think, obviously in every circumstance it would depend on 
a variety of factors. But it is obviously an area of concern 
that that attorney or any attorney would act in that manner.
    Mr. Biggs. And back to you, director. Drug court programs 
are one of the central elements to address opioid addiction. 
The DOJ through the Bureau of Justice Assistance maintains a 
drug court grant program. And HHS through the Substance Abuse 
and Mental Health Services Administration maintains another. 
Can you comment on the existence of any overlap between those 
two programs, their respective differences, and their 
respective success rates or who is measuring those rates?
    Ms. Maurer. Sure. Several years ago, we issued a report on 
the DOJ's side of the drug court's program and we found that, 
generally speaking, they seemed to have a positive impact in 
terms of reducing the amount of drug use as well as having 
positive impacts on recidivism. We have not looked specifically 
at the coordination between HHS and DOJ in their respective 
programs. I would note that the way it is laid out, it should 
be happening. They say that they have a common coordination 
structure, but we have not looked at that independently.
    Mr. Biggs. Have you thought about looking at that? I mean I 
would just like to know what is going on with it.
    Ms. Maurer. I think it is a valid issue for oversight, but 
we would need a request from Congress to conduct that work.
    Mr. Biggs. Okay, thank you. The Burn JAG, I guess, is a 
grant program that provides States, tribes, and local 
governments with funding for law enforcement prosecution, et 
cetera. To what degree--and this is for each of you if you 
would each take a moment to respond to this--to what degree can 
efficiencies be achieved by reducing the number of programs 
that duplicate the allowable uses under Burn JAG?
    Ms. Maurer. There is that potential. Obviously, that is a 
political decision because grant programs by and large stem 
from laws that Congress has enacted and the President signed. 
We have found examples where it may help eliminate some of 
those administrative barriers. It definitely places an 
additional challenge on the Department of Justice when there 
are allowable uses under JAG as well as in a parallel program.
    For example, we issued a report on the Bulletproof Vest 
Partnership Act Program a few years ago. They had requirements 
for how State and local--or how local law enforcement received 
that grant money that was different for the requirements under 
burn JAG. It required some additional steps for DOJ to put some 
commonality across those requirements. So, it is not 
necessarily a bad thing to have parallel programs. It just puts 
additional burden on DOJ to administer them appropriately.
    Mr. Biggs. So, I guess, director, any advice on how we 
can--if you are running parallel programs and they sometimes 
complement, sometimes perhaps conflict just a little bit, any 
suggestions on how we streamline that? Make it easier to use?
    Ms. Maurer. I think the real challenge falls back on the 
department itself. It is incumbent upon them to manage the 
array of grant programs that the Congress has established for 
the department to use. Certainly, transparency is part of that. 
Certainly, enhanced coordination and collaboration within DOJ 
is part of that. And that is backed by oversight from the 
Congress, the IG, and the GAO.
    Mr. Biggs. Inspector General?
    Mr. Horowitz. I would echo what the director said. I think 
one of the challenges we face--I know we regularly discuss with 
GAO some of the challenges they face in looking at grant 
programs, which is are they overlapping? Are they duplicative? 
Or are they filling different gaps? And that is a challenge 
because there is not as great a transparency as there should 
be. Our hope is the data act allows greater transparency over 
time. I think it will to some extent. The IG Impairment Act 
includes exemption from the Computer Matching Act. We are 
hoping that within the IG community we can have some of the 
tools that the GAO has had for several years to try to look at 
data more broadly.
    But frankly, our hope is that the agency and the grant 
making components we oversee collect more data and make it more 
transparent because that allows not only for our oversight, but 
for better congressional oversight, better oversight by all the 
stakeholders out there who want to see the money going in the 
right place and not in duplicative ways.
    Mr. Biggs. And the Congress might need to act to facilitate 
that?
    Mr. Horowitz. Correct. That is right.
    Mr. Biggs. Thank you, Mr. Chairman.
    Mr. Johnson of Louisiana. Thank you. The chair recognizes 
Ms. Lofgren from California for 5 minutes.
    Ms. Lofgren. Hello. Thank you and I think this is a 
worthwhile hearing. I am interested, Director Maurer, in your 
written testimony you state that the Department of Justice and 
the FBI had failed to do proper testing of the FBI's new facial 
recognition technology, particularly as it related to error 
rates.
    And the Department of Justice disagreed with that finding. 
Basically, as I understood it, their answer was that basically 
the false positives were not possible because there was a 
ranking only. And that did not make any sense to me. And in 
fact, as we looked at it, NIST, which is the gold standard of 
technology actually looked at this very issue in 2014 and did a 
report studying commercial facial recognition including the 
technology Morpho, which is the vendor used by the FBI.
    And NIST, their report said that the false positive is 
absolutely a necessary part of determining the system accuracy. 
They found that in a database of 1.6 million photos Morpho's 
system failed to rank the correct individual as the best match 
9.1 percent of the time. I mean, that is pretty significant. 
But even more serious, they failed to place the correct 
individual within even the top 50 7.1 percent of the time. So, 
this is a system that you rely on to your detriment.
    NIST also found that the error rate increases as the 
database size increases. And so, if we add all the photos the 
FBI has access to--that does not mean they are using all of 
them at this point--that is 440 million photos and the error 
rate would be, I would guess, I mean, extrapolating 
unacceptably high.
    So, I have several concerns about this. First, that the FBI 
apparently has no idea that the people it is being pointed to 
may not, in fact, be the people that should be identified. They 
apparently do not have the technological know-how to understand 
this error rate issue. And I guess the other question I have is 
why the FBI--they do some things very well--technology is not 
one of the things they are known to be the very best at. Why 
would they not reach out to the group that is the best when it 
comes to standard setting and technology like NIST to get some 
help on this. Can you answer those questions?
    Ms. Maurer. Sure. First off, as a general proposition, we 
absolutely agree with your overall concern about the FBI's 
approach to accuracy and its use of facial recognition 
technology, which is a reason why we highlighted it in our 
report. And you are also correct that we agree that it is 
important for the FBI to consider the false positive rate in 
assessing the accuracy of its systems.
    One, because NIST, as you also correctly pointed out, says 
it is a best practice for the use of facial recognition 
technology. We think that would enhance the FBI's ability to 
take advantage of what is a potentially very useful tool for 
carrying out its law enforcement mission. In addition to that, 
by not adequately testing for false positives, the FBI makes it 
more likely that they are going to unintentionally bring 
innocent people into investigative leads. That has very real-
world implications for people who may be approached by the FBI 
at home or at their place of work.
    We were, frankly, quite concerned about the FBI and the 
DOJ's response to our report, and we hope that they reconsider 
their position on accuracy and the FBI's use of facial 
recognition technology.
    Ms. Lofgren. Just to follow up on that, thank you for that 
answer. I understand that a couple of years ago the FBI also 
ran a pilot program using photographs from the Department of 
State passport photos of Americans, which is a huge number. And 
if you extrapolate the false positives on that, you are right. 
Innocent people will be fingered, but people who are of concern 
are going to be missed. So, I guess the question is are you 
intending to do further work with the DOJ and FBI? Or is that 
really up to the Congress to push them a little bit on this?
    Ms. Maurer. Absolutely at a minimum we will continue to 
follow up on the status of our recommendations. We made six in 
that report. They only agreed fully with one. We are going to 
keep hounding them on the other five until they take action. 
But if we want to do additional detailed work on this, we would 
require a new request from Congress.
    Ms. Lofgren. All right. Well, that is something I think 
maybe the committee ought to look at. I do not think there 
would be a division along partisan lines on that topic. Just a 
further question, which I did not see in the report. Maybe I 
missed it. There are alternative methods for identifying 
technological in addition to fingerprints and facial 
recognition in terms of iris scans and the like that are now 
being used at entry points and the like. Is the FBI really, 
number one, set up to use that data? And have we looked at the 
reliability of that data as compared to facial recognition?
    Ms. Maurer. We know that, generally speaking, the FBI is 
pursuing other uses of personally identifiable information to 
help support their mission. We have not looked in specifically 
at those kinds of technologies. That could be something that 
could be part of future work.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Mr. Johnson of Louisiana. Thank you. The chair recognizes 
Mr. Collins from Georgia for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman. I do not have a lot 
here, but I do want to explore something that is concerning. 
There has been an investigation going on that is looking into 
examinations regarding asset seizures and forfeiture--civil 
asset forfeiture from 2007-2014. Mainly it revolved around gun 
stores of the like dealing with IRS and others. I have a 
constituent, this Clyde Armory--this has been something that 
has been discussed a great deal in the Ways and Means 
Committee. We have been looking into this.
    But there was something that I wanted, Mr. Horowitz. I 
wanted to discuss a little bit with you about this because it 
was initiated by the IRS, but it was litigated by the U.S. 
Attorney's Office. And I know there is this situation going on. 
And when Mr. Koskinen testified before Ways and Means last 
Congress about the IRS basically extorting the small business 
owner, they stated this. They said, ``The IRS did not do that. 
The negotiations on settlement once it goes to court are in the 
realm of Justice Department and U.S. Attorney.'' Just some 
quick questions here. Can you provide me an update on this 
investigation and its scope? And when are you anticipating 
completing it?
    Mr. Horowitz. If I understand which one it is, Congressman, 
and I am not sure----
    Mr. Collins. This is the exemption regarding asset seizure 
and forfeiture activities from fiscal year 2007 to fiscal year 
2014.
    Mr. Horowitz. We have an asset seizure review going on, but 
it is not focused specifically on firearms. It is focused more 
on DEA action.
    Mr. Collins. Well, in general. Okay, but would it catch 
firearms? Would it catch other assets and forfeitures or just 
simply drugs?
    Mr. Horowitz. Mostly, what we found was most of the 
seizures that are going on in the department are on the DEA 
side and we were mostly looking at dollars.
    Mr. Collins. Well, this is dollars as well. I mean, we had 
a gentleman who owned a store. IRS along with the background 
came in, seized assets. He ended up getting--basically got 
extorted for half the money on something that was--at the end 
of the day was not there. So, if it is not there, I think it is 
something we need to look into.
    Mr. Horowitz. Right. And I anticipate us getting that 
report out in the next couple of weeks by the way.
    Mr. Collins. Okay. Let me jump to the other. When DOJ, in 
your investigation maybe the DEA or others--when DOJ litigates 
on behalf of other agencies, who is ultimately responsible for 
the decisions made at litigation?
    Mr. Horowitz. I will speak generally from my experience 
having been a prosecutor many years ago, which is ultimately it 
is the litigating authority at DOJ that makes the final 
decisions on what happens in the courtroom including resolution 
of the matters in the courtroom. That was my experience.
    Mr. Collins. How much do you think DOJ actually--I mean, 
getting these--one of the concerns it seems like also they get 
to DOJ--before it actually gets to DOJ for prosecution, there 
is a lot of concern concerning IRS agents in particular and 
others in their discretion and how they are using that 
discretion with seizure authority and others. Is there ever a 
ceding of discretion to another agency by DOJ to say, ``Look, 
we are not going to do this except when it gets to the court 
phase.'' Or, is there a collaboration beforehand?
    Mr. Horowitz. Frankly, it often depends on the 
relationships and how close the working relationships are. You 
will find occasions where cross agency work between civil or 
criminal prosecutors and components outside the department is 
close and other times you will find they are not having a 
history of a close----
    Mr. Collins. Well, I would love to see this. And civil 
asset forfeiture is something that actually that bridges both 
Republican and Democrat, this is a bipartisan, you know, very 
much of a concern. And it seems to me that there has been way 
too much latitude especially in the IRS around, on business it 
seemed to be politically motivated. Gun shops, other things, 
you know, and not even getting into the choke point issues on 
some other things that they were doing. But this is an issue 
that is concerning because here was a legitimate business that 
does a lot of cash influx. But it was--the assumption is you 
are guilty, prove you are innocent. And it is the IRS using 
authority that is tenuous at best and then having DOJ back it 
up into the arena of judgments and other things.
    So, I mean, I think I am interested to see what this report 
is, but if it really does not hit on some of the others besides 
DEA activities, if we are not getting into IRS, then I would 
almost say that we need to look into both sides. I mean, there 
is legislation already moving on this. So, I just wanted to get 
some clarification. Because from Mr. Clyde and my position, 
here is a man who is basically extorted by the Federal 
Government for money, which he did, nothing wrong, at the end 
of the day had to go back and get. So, I think these are the 
issues that we need to continue to follow up on.
    Mr. Horowitz. And completely understand the concern and as 
DOJ IG I have authority over the four DOJ law enforcement 
components. IRS obviously not being one of them. So, it----
    Mr. Collins. Well, when it comes to DOJ that is the concern 
I have. There seems to be a ceding of authority from DOJ. We 
will take whatever you give us. We are not really concerned. 
And we just sort of enforce whatever you are asking us to 
enforce. That is at least the perception that you are the 
strong arm of the extortion sting that is going on. With that, 
Mr. Chairman, I yield back.
    Mr. Johnson of Louisiana. Thank you, Mr. Collins. The chair 
will now recognize the gentlewoman from Texas, Ms. Jackson Lee, 
for 5 minutes.
    Ms. Jackson Lee. Let me thank both of you for your service. 
I think, Mr. Horowitz, you have been before this committee 
before and I want to reintroduce myself to Ms. Maurer. And 
thank you for the work. You are often before our committees and 
we appreciate it very much.
    I have a series of questions and I want to lay the 
groundwork by indicating my interest in oversight over a series 
of executive orders that have been rendered since the 
administration of the 45th president. This has come about 
because of the implementation part of those orders. So, let me 
first start, Mr. Horowitz. We have been discussing and there 
will be a letter coming, but let me just ask the question. As 
you know, there have been newspaper reports that there was 
undue influence on a memo both constructed by the Homeland 
Security Department and the Department of Justice as a basis of 
the Muslim ban. Are you aware of those reports?
    Mr. Horowitz. I have certainly seen news reports in that 
regard.
    Ms. Jackson Lee. And so, would the Inspector General be 
investigating that undue influence? Or what would legitimately 
provoke you to do so?
    Mr. Horowitz. So, with regard to any actions by DHS or 
discussion in DHS----
    Ms. Jackson Lee. No, this is Department of Justice. 
Department of Justice.
    Mr. Horowitz. In terms of the Department of Justice----
    Ms. Jackson Lee. The memo was constructed by both the DOJ 
and Homeland Security.
    Mr. Horowitz. I just want to make clear on the DHS side----
    Ms. Jackson Lee. No, I am very clear on that.
    Mr. Horowitz. Right. With regard to any actions by 
attorneys, one of the things we have talked about for years is 
the fact that we do not have authority over decision making by 
attorneys acting in their capacity as attorneys. That would be 
in the province of the Office of Professional Responsibility.
    So, I do not know of whether anything is under review there 
or not and whether they have even gotten a referral or an 
allegation before them. But, anything that would come our way 
that would regard conduct by an attorney acting as an attorney 
in that capacity, we would have to look, whether under the IG 
Act, we even have jurisdiction to consider it.
    Ms. Jackson Lee. So the idea would be what was the undue 
influence to construct the document in the way that was 
constructed. Whether there was sufficient evidence or 
information that would warrant that kind--so that is sort of a 
technical aspect. So, I would then commend you to look at it 
and determine your jurisdiction, but to determine whether in 
the implementation something went awry with undue influence 
that generated that memo that generated that particular order.
    Let me quickly go to Ms. Maurer. It has been reported that 
Eric Trump's recent business trip to Uruguay cost taxpayers 
nearly $100,000 in hotel bills alone. It has also been reported 
that providing security for the First Lady to maintain a 
residence in New York City costs nearly double the amount it 
takes to fund the entire National Endowment for the Arts, a 
program that the President has proposed we eliminate in the 
name of budget priorities. Ms. Maurer, does the GAO plan any 
work in this area? What do you plan to study and when will you 
release your results?
    Ms. Maurer. Yes, we have received some requests from 
different parts of the Congress to look at different aspects of 
that issue. For example, the House Homeland Security Committee 
has asked us to look at Secret Service's travel costs during 
the Presidential campaign. We also have a request that we 
recently received from Senate Judiciary and Senate Homeland 
Security to look at the issue of the cost incurred for Secret 
Service protection of the President's children when they are 
traveling overseas to directly address that.
    Ms. Jackson Lee. So will you look at those issues?
    Ms. Maurer. We will definitely look at the cost incurred by 
the Secret Service and report on those sometime later. We have 
not yet started that work, so we cannot really give you 
timeframes.
    Ms. Jackson Lee. Thank you. Mr. Horowitz, let me give you 
two questions if you would answer. Under the immigration 
Executive order, ICE officers have been given undue 
responsibilities or authority. They have sort of enhanced their 
authority and on occasion ICE officers have found themselves on 
church grounds and in courthouses, all is technically against 
the law, and have made decisions on issues that have, in 
essence, violated due process or ignored various petitions.
    Number one question is whether or not you will be looking 
at that implementation from ICE officers' perspective. Then 
second, you may know the case of Daniel Chung who was forced to 
drink his own urine after he was left in a cell for 5 days 
without food or water.
    He lost 15 pounds. College student. This was done at a DEA 
raid of a house in 2012. We know that you have released a 
report. My question is, has the DEA followed these 
recommendations? Has the DEA implemented a record keeping 
method to track detainee movement? Because they forgot he was 
in the cell.
    Have they increased video monitoring of cell areas? Have 
they implemented training regarding the operation of the 
holding cell area? What has the DEA done to ensure its agents 
do not initiate improper investigations and instead report 
incidents to the Office of Professional Responsibility? So, if 
you can answer the new ICE, seemingly, expanse of their 
responsibilities and the question about the DEA.
    Mr. Horowitz. So, on the ICE issue, unless they interacted 
with any of the DOJ components, I would have to contact and 
refer that to my colleague at DHS OIG because of his authority 
over ICE. So, I can follow up and ask him what he is----
    Ms. Jackson Lee. We have authority over internal 
enforcement, which is part of ICE's work.
    Mr. Horowitz. Right, but that, ICE being part of the 
Department of Homeland Security at this point, I would have no 
jurisdictional authority to look at that under the IG Act. So, 
the DHS IG has authority over ICE and I will----
    Ms. Jackson Lee. You would not have dual authority?
    Mr. Horowitz. No, we do not, actually.
    Ms. Jackson Lee. All right. Then go to the other, with the 
DEA too.
    Mr. Horowitz. With the second one, I appreciate your 
following up on that. Let me get the current status to you. 
These changes have occurred because I know you followed up on 
these issues since they occurred in 2012. Other members have 
followed up and let me get right back to you on that.
    That, I agree with you, was a terrible situation, should 
not have happened. There needs to be a reform and I know that 
you have taken a lead on that. So, I appreciate it.
    Ms. Jackson Lee. Thank you very much. I yield back. Thank 
you for your service.
    Mr. Johnson of Louisiana. Thank you and the chair 
recognizes the gentleman from Texas, Mr. Gohmert, for 5 
minutes.
    Mr. Gohmert. Thank you, Mr. Chair, appreciate the witnesses 
being here. I want to ask the Inspector General: with regard to 
the activity of the Civil Rights Division of the Justice 
Department, it has been considered rather historic, and I was 
noting the one Texas Federal judge was so shocked by the 
Federal Civil Rights Division attorney's repeated lies that he 
ordered a blistering five part remedy that would supervise 
ethics training for hundreds of Justice lawyers, but he noted 
in his opinion the 132 ethical violations DOJ has admitted just 
in the past 4 years.
    Pretty staggering, and when that is taken into 
consideration with the allegations that DOJ used settlements to 
wrench funds from defendants that it pursued to go to friends. 
In fact, one indication was the American taxpayer had been 
robbed in this article of, at least, $3 billion dollars where 
DOJ directed settlement funds to go to reported nonprofits. 
Have you looked at that at all? How much money DOJ has spent 
pursuing litigation that resulted in money going to 
nongovernment nonprofits?
    Mr. Horowitz. We have not taken a review of the costs 
involved, and the settlements that resulted, and how it was 
spent. I know that has been an area of concern for members of 
this committee, as well as the Appropriations Committee, and 
something we can take under advisement.
    Mr. Gohmert. You know, because in Texas, I looked at Texas 
law before that indicates that in Texas, if someone uses their 
official capacity as an attorney for the State of Texas to get 
someone to pay money to a third party, to anyone, in return for 
official action, like dismissing a lawsuit, then that would be 
a felony, a crime, and yet it appears to be something that 
happened with great regularity at the United States Department 
of Justice in the last 8 years.
    Where, routinely, defendants were pursued and were 
ultimately coerced. If you will give millions to this, our 
favorite nonprofit, here, there, yon, then we will dismiss the 
case and we will have a settlement. So, that is why I was 
curious. I had never seen if there had been such an Inspector 
General Report or investigation into this area because, 
clearly, if something is worth pursuing by the U.S. Department 
of Justice, you would think it would be on behalf of the 
taxpayers and would result in at least acquiring enough money 
to pay their own attorney's fees, rather than using taxpayer 
funds to pursue defendants so that they could fund their 
favorite nonprofits. Has anyone made such a request for an 
investigation?
    Mr. Horowitz. I do not recall us receiving a request or one 
of the private litigants sending us specific facts laying out 
the concerns. I will say, if we did get such a request, if it 
focused on the conduct of the lawyers and reaching a settlement 
at the department, that will take me back to what I mentioned 
earlier, which is the first thing we would have to do is look 
to see if we had jurisdiction even over those actions. We 
might, depending upon the facts, but we might not, depending 
upon the facts because of the limitation on our authority in 
the IG Act and whether we have to refer that allegation to the 
Office of Professional Responsibility.
    Mr. Gohmert. And if you did not have jurisdiction, then who 
would?
    Mr. Horowitz. It would then go to the Office of 
Professional Responsibility, which is a component of the 
department, created by the department. Its director is 
appointed by the Attorney General and removed by the Attorney 
General.
    Mr. Gohmert. Right, do you know if anybody with that office 
has looked into the 132 ethical violations that DOJ admitted in 
a 4 year period?
    Mr. Horowitz. I do not know.
    Mr. Gohmert. All right, I see my time is expired, thank you 
very much.
    Mr. Johnson of Louisiana. Thank you and the chair would 
recognize Mr. Johnson of Georgia for 5 minutes.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. Mr. 
Horowitz, May 11th will mark the fourth anniversary of a deadly 
joint drug interdiction operation by DEA agents and Honduran 
security forces, in which four innocent indigenous people were 
killed and three others were wounded and it has been at least 3 
years since the DOJ and the State Department began conducting a 
joint review of this incident.
    What I would like to ask you is you have been investigating 
these three incidents, actually, where DEA agents were supposed 
to be only acting as advisors but, yet, people were shot and 
killed. Innocent people shot and killed. Can you give us a 
status report on your initial findings on this investigation 
and when can the public expect to see the results of this 
investigation?
    Mr. Horowitz. I would not get into yet what we found 
because the report is about to be released. We have been 
waiting for many, many weeks now to get final classification 
and other markings from the department and its components so 
that we know what we can release publicly, because we want to 
make sure we can let the public see what has occurred, in 
addition to the members who, obviously, can get all of the 
information. So, I am hoping that that can be released in the 
very near term.
    I will say, the other thing is, as I think you may know, 
that held us up for a little bit of time is this review got 
caught up in the DEA several years ago refusing to provide us 
with timely access to information and so, for about a year, we 
were trying to get certain records that we were not being 
given. That has moved on, and so we were able to finally 
complete the review towards the end of last year.
    Mr. Johnson of Georgia. You were able to get those records?
    Mr. Horowitz. We finally were able to get those records. 
That is where the IG Impairment Act was so important to have 
our component understand what Congress expected. I think you 
will see a very full report about what occurred there and 
information that, I think, will answer a number of very 
important questions you and other members have raised.
    Mr. Johnson of Georgia. Has the legal framework regarding 
access to information by the Inspector General's Offices 
impacted the ability for your agencies to conduct reviews?
    Mr. Horowitz. It has until about a year or so ago. When, 
finally, we got complete and full cooperation starting from FBI 
and DEA, but it delayed the Honduras review, or it impacted the 
Honduras review. It impacted our review of sexual misconduct 
and harassment by the four law enforcement components, DEA and 
FBI held up records. It affected our materials witness warrant 
review. It impacted our mass security letters review. I could 
go on and on the reviews it impacted, but I am pleased to 
report that with the IG Empowerment Act going through, I think 
in my instance, I am hoping those days are behind us.
    Mr. Johnson of Georgia. Thank you. Last year, the New 
Orleans Advocate reported on the Federal case against two DEA 
agents. The investigation of the DEA's New Orleans office 
revealed improper conduct within a multiagency drug task force. 
A member of that task force faces nine counts, including drug 
trafficking, falsifying seizure reports, and robbery.
    Another member operated as a DEA task force officer despite 
not having the required security clearance. He was allowed to 
access DEA workspace and transport seized drugs. Does the 
Inspector General or the Government Accountability office plan 
to investigate misconduct within multiagency drug task forces?
    Mr. Horowitz. So, on that issue, as you noted, we were 
involved in that case, or are involved in that case, that is 
public given the public filings to date, and I can assure you, 
we are investigating that aggressively. We are working that 
with the FBI, and the DEA, and we will pursue all of the 
information we have gathered in that matter, but I cannot go 
into, obviously, the details of any investigation, but it is 
public that we are investigating.
    Mr. Johnson of Georgia. Any idea when that investigation 
will conclude?
    Mr. Horowitz. I would not even begin to suggest, having 
been a prosecutor myself in my earlier career, it really 
depends what the information shows and where the evidence takes 
us, and we will, obviously, want to pursue every lead because, 
as you noted, these are serious allegations and some of them 
are now public through the charging documents that have been 
filed.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. I yield 
back.
    Mr. Johnson of Louisiana. Thank you and the chair now 
recognizes Mr. Chaffetz of Utah for 5 minutes.
    Mr. Chaffetz. Thank you. Thank you both for being here. Mr. 
Horowitz, I want to talk to you about the Bureau of Prisons and 
the reentry program that is brought up here. You were going to, 
I think at our request, conduct a review of halfway houses. Is 
there any sense of update as to the timing of that, something 
you can share with us?
    Mr. Horowitz. So, we released a review towards the end of 
last year, as you know. BOP spends over $300 million a year on 
halfway houses, and we looked at that issue, and we were 
concerned with how it is managing its halfway houses. These are 
an opportunity, given the wide variety of halfway houses out 
there across the country, for BOP to look at which ones are 
operating in the most effective way, whether they have got 
strong reentry programs, and what we basically found was that 
there was not meaningful, in our view, efforts to analyze which 
ones were doing well and which ones were not.
    And, in addition, I know GAO has done work on this as well, 
we found that the people in the greatest need of halfway houses 
were not necessarily getting there because people who were low 
risk recidivists, like some white-collar defenders, were 
actually being placed in halfway houses rather than in home 
confinement. Thereby using up important bed space and some 
studies have suggested that that is actually more harmful than 
helpful because those individuals then get put in place where 
violent criminals, and so you have this odd use of limited bed 
space by the BOP, and something we were very concerned about.
    Mr. Chaffetz. Now, so, when we talk about the $400 million 
for its re-entry programs, is the halfway houses part of that 
400 million? Do either of you know?
    Mr. Horowitz. I am sorry. So, the halfway house program is 
considered one of the re-entry programs and I think it is fair 
to say, and the director can tell me otherwise, but I think it 
is by far the biggest amount of dollars involved.
    Mr. Chaffetz. Do you have anything you want to, director, 
add to that?
    Ms. Maurer. Absolutely, the work that we did looking at 
alternatives to incarceration echoes the findings that the 
Inspector General mentioned about alternatives, such as halfway 
houses and home confinement.
    Mr. Chaffetz. There is no real metrics that they have put 
into place.
    Ms. Maurer. No.
    Mr. Chaffetz. Selfishly, I did introduce a bill that deals 
with re-entry. That we have a choice in this country, can make 
them better criminals or we can actually look at the key 
metrics that will reduce the rates of recidivism, but if the 
Bureau of Prisons is not implementing some key findings, things 
that have been done at the States about work programs, and 
religious services, and not getting in fights. You know, all 
these things that States have learned, but you do not see them 
doing much of anything in that, do you?
    Ms. Maurer. Well, to give them some credit, they have 
established a re-entry division that is focused on better 
outcomes for their inmate populations, so they are better 
prepared for entering back into society. If they do not have 
measures of how well some of those key programs work, hard to 
know whether they are succeeding.
    Mr. Chaffetz. I want to jump to the GAO report here, I have 
got just a minute. The ATF, it says, ``to carry out its 
enforcement responsibility, ATF maintains 25 firearm related 
databases, 16 of which contained firearm purchaser information 
from the FFLs.'' Why do we have so many databases?
    Ms. Maurer. That is a great question.
    Mr. Chaffetz. It scares me if you do not know the answer to 
that, not because you are not good at what you are doing, but 
just because they probably do not know why they have 25 either, 
right? Why did they get there and are they doing anything to 
address it?
    Ms. Maurer. They have explanations for all 16, we did not 
do an independent assessment of whether they needed 16, or 12, 
or 35. Generally speaking, the ATF has to balance the need to 
conduct criminal investigations that involve firearms, with the 
legal requirement that they not have a consolidated, single 
database for firearm purchaser information. So, another way of 
framing that is, they are required by law not to have a single 
database where all this information is stored.
    If they did, it would be in violation of Appropriation Act 
restrictions that Congress has passed over the years. That was 
one of the findings of our report, was that in some specific 
instances they were inappropriately consolidating information 
on purchases of firearms and violating the act.
    Mr. Chaffetz. All right, that is interesting. Well, we will 
have to go back and explore what the history of that is. 
Lastly, I just wanted to talk about the FBI whistleblowers. We 
did pass it. I think it was, in fact, the last bill that we 
passed in the last congress, this was a bill of mine, FBI 
whistleblower retaliation, but you conclude by saying, 
``Department of Justice concurred with these recommendations 
but, as of March 2017, has not provided documentation of 
actions taken to address them.'' So, are they on a trajectory 
to actually do what the law now requires them to do, or is this 
the natural time progression that it takes, or are they kind of 
ignoring this whistleblower protection that is supposed to be 
in place?
    Ms. Maurer. Well, certainly the Congress passing the law 
and have the President sign it into law was a major step in 
bringing the FBI's whistleblower protections on par with the 
rest of the government. So, that was a tremendous 
accomplishment. I honestly do not know why the Department of 
Justice has not responded to our recommendations. It is of 
concern to us, we issued our report 2 years ago. From our 
perspective, the implementation of those recommendations are 
not dependent on that piece of legislation. So, we are waiting 
to hear back from them on that.
    Mr. Chaffetz. Inspector General, do you have any?
    Mr. Horowitz. No, Congressman. It is very concerning that 
there is not swifter action to address these issues for the 
reasons that you sponsored, and others supported, and got 
through that whistleblower bill. There was an order issued by 
President Obama on PBT-19, as you know, that required the 
department and all the agencies in there to take action within 
180 days and the department missed that deadline by many, many, 
many months, and it is something that the department needs to 
do a better job of.
    Whistleblower issues, as we both have talked about, and I 
know as you have you have talked about, and the work you have 
done, they are the lifeblood of the oversight work that we do. 
They are good, ordinary people who are coming forth and 
reporting on waste, fraud, abuse, misconduct. They are our eyes 
and ears and they need to be seen and heard and never be afraid 
that they are going to be retaliated against.
    Mr. Chaffetz. Thank you. Thank you, Chairman.
    Mr. Johnson of Louisiana. Thank you and the chair now 
recognizes Mr. Jeffries of New York for 5 minutes.
    Mr. Jeffries. Thank you, Mr. Chairman and I want to thank 
the distinguished witnesses for your presence here today, and 
also for your service to this county. Inspector General 
Horowitz, you are familiar, of course, with the Second Chance 
Reauthorization Act, is that right?
    Mr. Horowitz. I am.
    Mr. Jeffries. And I believe this act says that the Bureau 
of Prisons, under the direction of the Attorney General, 
establish a prerelease planning set of procedures to help 
prisoners apply for Federal and State benefits upon release. 
Including Social Security cards, subject to any limitations in 
the law, is that right?
    Mr. Horowitz. That is right.
    Mr. Jeffries. And the act also says that the BOP director 
shall assist prisoners in obtaining identification. Which could 
include, beyond a Social Security card, a driver's license, or 
some other form of official photo identification, birth 
certificate, prior to release. Is that right?
    Mr. Horowitz. Yes.
    Mr. Jeffries. And, in connection with this statute, the 
Social Security Administration and the BOP, I think, are 
operating under a memorandum of understanding. Is that right?
    Mr. Horowitz. That is my understanding, yes.
    Mr. Jeffries. And have you had an opportunity to review how 
that memorandum of understanding is functioning in practice, in 
terms of implementation of the statutory mandates?
    Mr. Horowitz. We looked broadly at how the BOP was working 
with other agencies, Social Security, where we found they did 
have the agreement and it was, as we understood it, a working 
relationship, but we looked at others where areas, like for 
veterans, they did not have a similar with the VA and other 
similar types of government agencies that could help 
reintegrate individuals with the support they need to get into 
the communities, that they had not taken those basic steps. It 
was something we were concerned about. We were concerned, more 
broadly, also about how they were preparing inmates for 
release.
    Mr. Jeffries. You make a set of recommendations in terms of 
how the BOP could more successfully work with other Federal 
Government agencies, in terms of facilitating re-entry.
    Mr. Horowitz. We did and I would have to follow-up and find 
out precisely where they are now, but that was, in fact, one of 
them.
    Mr. Jeffries. Okay. Now, do you recall how many inmates on 
an annualized basis have requested help securing a Social 
Security card?
    Mr. Horowitz. I do not recall as I sit here. I can 
certainly get that number for you.
    Mr. Jeffries. And do you have a sense of what the success 
rate may be, in terms of a percentage?
    Mr. Horowitz. Our understanding was that the MOU was 
working well. I do not have a number here that I could tell you 
what it was, but it informed our decision on looking at why 
there was not similar agreements with VA and others.
    Mr. Jeffries. So, from the standpoint of securing 
additional forms of identification beyond the Social Security 
card, your concern is that in the absence of an MOU or in 
absence of any evidence that there are similar working 
relationships that the BOP is not doing as much as they could 
potentially be doing in these other identification areas.
    Mr. Horowitz. Correct, and there is a support network out 
there where the basics that people could get, whether it is 
Medicare, Medicaid, veteran's benefits, if you are a veteran 
coming out of the facility, others, that we found the BOP was 
not doing a good job informing inmates of and then helping them 
gather the benefits they were entitled to. Which also would 
help protect the communities, because you want inmates to 
successfully reintegrate into society. That should reduce 
recidivism rates and so that is a benefit all around.
    Mr. Jeffries. Am I correct that this past November the DOJ 
announced that it will begin paying for every Federal inmate to 
obtain a birth certificate and or a State issued identification 
card before they arrive at a residential re-entry center?
    Mr. Horowitz. I recall reading that, I do not know that 
specifically, Congressman, as I sit here.
    Mr. Jeffries. Okay, Director Maurer, are you familiar at 
all with this program?
    Ms. Maurer. I am not familiar with the specifics of that 
program. That goes for broad brush that while BOP has made some 
great strides on the reentry front, there is a lot more that 
they still need to do.
    Mr. Jeffries. Thank you, I yield back.
    Mr. Johnson of Louisiana. Thank you and last, but not 
least, the chair recognizes my learned colleague, Ms. Jayapal 
from Washington, 5 minutes.
    Ms. Jayapal. Thank you so much, Mr. Chair. Thank you both 
so much Inspector General and director for your service and for 
your work.
    I want to go back, Inspector General Horowitz, to the 
medical care issues and say that I am just deeply concerned 
about the reports that have been coming out around the issues 
of medical care within the private prisons and the BOP system. 
And, last year, The Nation magazine obtained records for 103 
out of 137 people who have died in BOP private prisons. Only 77 
of them provided enough information to actually look at the 
individual cases, but the conclusions even from those reports 
were damning: 38 deaths that involved inadequate medical care 
and inadequate medical care likely contributed to the 25 
premature deaths.
    And there are a number of cases along these lines, but one 
was a 41-year-old named Nester Garrai who was at a private BOP 
facility operated by the Geo Group in Texas, and I mention his 
case, in particular, because his cellmates yelled for help for 
30 minutes after he suffered a massive stroke. And because the 
doctor was not on site, he lived 45 minutes away and, 
ultimately, it was almost 6 hours before he went to a hospital 
and died.
    So, your office has conducted several audits on this. You 
have mentioned it in your statement. My question to you is what 
specific improvements have you actually seen and required from 
BOP around medical care?
    Mr. Horowitz. So, what we have seen are the reports back on 
whether the steps they have taken are sufficient to meet out 
recommendations and to close them. I would have to go back and 
get specifics on what is, if any, still remains open on them. I 
believe there are some that are still open in some of those 
audits.
    We have not, though, gone back, at this point everything is 
fairly recent in terms of our work, to do any follow-up work on 
site because, obviously, that would be a further way to assess 
it. But the first step is seeing if they actually implemented. 
I would add that the burden is also on the BOP because, as you 
know from our oversight report of what the BOP is doing, in any 
of the work we do, really the first line oversight is by the 
component who is spending the money. They are primarily 
responsible; I have got 450 people to oversee 112,000 
department employees. I have got a $93 million budget to 
oversee a $28 billion budget.
    So, we cannot be the BOP's only oversight on these, but we 
do make sure through our follow-up, throughout follow-up 
questions, through their interactions and seeing their 
interactions with Congress and members, whether they are in 
fact making the reforms that we think are critical.
    Ms. Jayapal. One of the issues is around--and your report 
mentions many times that, you know, the management of costs for 
the prisons--but one of my concerns is that one of the ways to 
cut costs is by cutting services and, so, do your 
recommendations include things like having onsite medical 
professionals and not cutting costs in specific areas that 
would actually cause death and better outcomes for our people 
that are in there?
    Mr. Horowitz. Yeah, in both our contract prison report, but 
also actually as to our BOP oversight for its own institutions, 
we have consistently expressed concern as to whether there is 
sufficient medical care in the contract prison situation based 
on the contracts the BOP has written at the BOP institutions 
based on their own policies and the staffing challenges they 
have faced that we heard from when we were on the ground at 
facilities and making sure that that appropriate care is being 
given to inmates.
    That is a constitutional requirement, if you are 
responsible for an inmate, you have got to give them 
appropriate medical care, making sure that is present. What our 
cost-related concerns have been is, interestingly enough, we 
found that BOP alone among the Federal Government is actually 
paying, in many instances, multiples of the Medicare 
reimbursement rates to care for at site prisoners. So, doctors 
who are treating inmates are actually getting reimbursed 
potentially at rates higher than the Medicare rate and 
therefore higher than the rates for treatment of veterans, 
military families, detainees, Native Americans through the 
Indian Health Service, all of whom are limited to Medicare.
    Ms. Jayapal. That was one of my questions, I noticed in 
your report that there was a work group that was supposed to be 
established around that. Has there been any progress made on 
that?
    Mr. Horowitz. We have not received a report yet of the 
further progress. I can assure you we are going to follow that. 
That is a $100 million-plus costs saving potentially for the 
Justice Department and, in our view, there is no reason that 
the same reimbursement rate laws that apply to the Veterans 
Administration, the Defense Department, Homeland Security, the 
FBI, and the Marshals Service, by the way, within the Justice 
Department.
    Ms. Jayapal. I urge that follow-up and I know my time is 
over. I will just say that having an MD on site, the penalties 
for this are actually lower than the cost of paying the 
doctor's salary. So, it is a huge issue and I hope that you 
will stay as vigilant as possible. Thank you, Mr. Chair, I 
yield back.
    Mr. Johnson of Louisiana. Thank you and the chair 
recognizes Mr. Cicilline for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman; I thank you to our 
witnesses. Mr. Horowitz, after the President of the United 
States repeatedly made and refused to withdraw unsubstantiated 
claims that President Obama ordered a wiretap of his phones, 
the Department of Justice and the FBI were pulled into an 
investigation of these baseless claims.
    That investigation started on, at least, March 10th of 2017 
when the House Intelligence Committee asked DOJ for any 
documents to support the President's false allegations and then 
continued through March 17, 2017 when the Department of Justice 
submitted a report to the House and Senate Intelligence 
Committees in compliance with this request.
    This DOJ inquiry happened, despite the fact, that during 
this time period the White House put forward zero evidence to 
support this claim that Trump Tower had been wiretapped, and 
both the House and the Senate Intelligence Committees publicly 
stated that no such evidence existed.
    And so, my question is, is it the Inspector General's 
responsibility to investigate if department resources are 
wasted, you particularly spoke about tight budget times, would 
you consider an investigation into allegations that are 
demonstrably false to be wasted resources and are you intending 
to investigate, or have you begun to investigate, whether 
taxpayer resources were wasted to support the agency's 
investigation into President Trump's false allegation that 
President Obama wiretapped Trump Tower?
    Mr. Horowitz. First of all, in the substance, I only know 
what I have read in the paper. I am not privy to the classified 
requests or information back.
    Mr. Cicilline. But, I mean, you are privy to the fact that 
these are claims that are unsupported by the evidence. There 
was an investigation that was required by the Department of 
Justice, which I take it you would agree is a waste of 
resources in a time of constrained and limited resources, is 
not normally something you would look into?
    Mr. Horowitz. Depending upon the issue we, obviously, could 
look at what the costs would be like of how long it took to 
gather the information or otherwise. Obviously, heard about and 
saw parts of yesterday's hearing, but we have not initiated any 
work in that regard and I would have to consider, frankly, what 
our role, if any, should ever be in something like that, given 
our limited resources.
    Mr. Cicilline. I would encourage you, in the discharge of 
your responsibilities, to do that. I think we are being asked 
to make serious reductions in a number of different areas 
because of cost constraints and wasting time by one of the 
departments as a result of a patently false statement from the 
President seems to me should be something we understand and try 
to prevent in the future.
    The second question I want to turn your attention to is, 
after a 27-year career with the Justice Department, acting 
Attorney General Sally Yates was fired just 10 days into the 
new Trump administration, reportedly for refusing to defend the 
President's now unconstitutional Muslim Ban.
    However, it subsequently came out that Sally Yates warned 
the incoming Trump administration that Michael Flynn had 
discussed sanctions during a conversation with the Russian 
Ambassador and then lied about it to the Vice President of the 
United States and, as a consequence, may be compromised or the 
subject of some extortion. Subsequently, U.S. Attorney Preet 
Bharara was one of the 46 Federal prosecutors instructed to 
resign by the Trump administration.
    Two days before he was fired, the ethics watchdog group 
CREW sent him a letter asking him to investigate whether 
President Trump's business interests violate the Emoluments 
Clause and it is also been reported that at the time he was 
fired Mr. Bharara had been investigating HHS Secretary Tom 
Price for questionable stock trades.
    And so, my question is, does it violate Department of 
Justice protocol if an employee is fired due to the nature of 
an investigation in which they are engaged? Can the President 
or the Attorney General fire a DOJ official because they do not 
like the target of an investigation that that official is 
undertaking? And if you believed a DOJ employee were fired 
because of political considerations, would that be something 
that your office would investigate?
    Mr. Horowitz. I do not know enough facts to opine on the 
first two issues. Clearly, as to the last, if there was 
evidence presented that an employee was fired to try and shut 
down an investigation or otherwise interfere with it, that 
would be, obviously, something serious and we would look at the 
predicating facts and consider what had occurred.
    Mr. Cicilline. Well, but based on what you already know, do 
you intend to review this to determine if, in fact, that is the 
case?
    Mr. Horowitz. We would, just generally speaking, require 
before we open an investigation some predicating facts on it 
beyond--and I am confident if Mr. Bharara or former DAG Yates 
thought that was an issue here they would not be hesitant to 
reach out and report that kind of information to me. I mean, it 
would depend on what we got, what information we got, and what 
we were told, and what witnesses were reporting to us and 
claiming to us.
    Mr. Cicilline. And finally, Mr. Horowitz, last Friday, 
House Democrats wrote to you and asked you to investigate 
reports of several improper contacts between the White House 
and the Department of Justice. Every Attorney General since the 
Carter administration has had guidance in place to limit 
contact between independent investigators and the political 
leadership of the administration. It seems that both President 
Trump and his Chief of Staff have ignored this guidance, and 
can we count on your office to look into this matter, and does 
the fact that these kinds of conversations have taken place 
give you cause and raise some concern with you?
    Mr. Horowitz. So, I did get the letter Friday late in the 
day and we are looking at and considering it. I have not made 
any decisions yet on how to proceed. That is normally something 
we would consider before making any decisions on but, 
obviously, if, you know, any instance where there is department 
policies that have been challenged, put at risk, or action 
taken that is something we would certainly consider. Thank you.
    Mr. Cicilline. I thank you and thank you for the indulgence 
Mr. Chairman, I yield back.
    Mr. Johnson of Louisiana. Thank you, we are almost done. 
Thank you both for being here. The chair recognizes myself for 
5 minutes. In 2016 DOJ OIG issued a report on the DOJ's 
National Security Division's enforcement and administration of 
the Foreign Agents Registration Act, and the report concluded 
that there was much needed improvements to NSD's enforcement 
and administration of FARA, the Foreign Agents Registration 
Act.
    Additionally, the report highlights that a number of 
recommendations have been repeatedly made, this is a quote, 
``over the years in reports by the Government Accountability 
Office and its predecessor, the General Accounting Office, and 
by the public interest organizations and that these 
recommendations should be seriously considered if the purposes 
of FARA are to be fully realized.''
    So, I have begun working to draft some legislation that 
will try to seek some common-sense methods to improve 
transparency in oversight in foreign donations influencing U.S. 
policymaking. So, the question I had today, I guess for both of 
you, is whether you would be willing to commit to working with 
my office to determine what some of those commonsense efforts 
might be?
    Mr. Horowitz. Absolutely, this is an important area. I 
agree with you that there needs to be some reform in this area.
    Ms. Maurer. Absolutely, I would be happy to work with you 
as well and we would coordinate with our colleagues at the IG 
that our work is complimentary with each other.
    Mr. Johnson of Louisiana. Thank you very much for that. In 
the 2016 report, you also state that the number of FARA 
registrants has fallen in recent years and I was just curious 
what you would say the decline is attributable to. If it is due 
less to active involvement by foreign governments or issues due 
to a lack of comprehensive FARA enforcement strategy. What do 
you think about that?
    Mr. Horowitz. I do not think we saw evidence that would 
allow us to include the former. I think part of it was 
enforcement questions, part of it was what appeared to be 
confusion over the scope of FARA versus the Lobbying Disclosure 
Act and which applied and where should the registration occur, 
and the importance of the department making it clear to the 
public and potential registrants when they needed to come 
forward and register.
    Mr. Johnson of Louisiana. Another line of questioning, the 
role of inspectors, General, involves keeping Congress fully 
and currently informed about fraud and abuse within Federal 
agencies and programs, and we have discussed a lot of that 
today. Certainly, includes complete and thorough 
investigations. But we are aware during the last administration 
efforts were taken to deny substantial access to requested 
information to review DOJ and agency corruption, waste, fraud, 
and abuse, and it was based upon an Office of Legal Counsel 
legal opinion. So, the question is, where does that stand today 
and has there been necessary actions taken to try and remedy 
that problem?
    Mr. Horowitz. So, with regards to access, I think and it 
should be the case, that the IG Empowerment Act resolved that. 
That Congress made it clear what I think all of us thought was 
already clear, but maybe if you have got to say it twice people 
listen, and that we have access to records. I think GAO still 
has issues, frankly, on some of these. I know we compare notes 
on these questions but we have not had an issue since that 
passed. Hopefully, that resolves it.
    We still think there are steps that could be taken to 
advance our ability to do oversight like testimonial subpoena 
authority. Something that was in the bill originally and was 
taken out, and the bill passed by the House, taken out at the 
last minute by the Senate bill, which was, ultimately, the bill 
passed by the House.
    We have been discussing with the chair of this committee 
and other committees that possibility and I would say, just 
generally speaking in terms of oversight, perhaps one of my 
biggest concerns is the budget issues. Not having a budget into 
this fiscal year, not knowing where we are going next fiscal 
year, we do have a very strong return on investment.
    The total amount of money invested in our office, for 
example, is 0.33 percent of our department's budget. So, we are 
an extraordinarily small part of the department's budget and 
that is, frankly, where our concern is on oversight going 
forward.
    Ms. Maurer. Just real quickly, in terms of GAO's access, 
two quick points. First, I want to thank the Congress, one of 
the very first bills this Congress enacted was a bill that 
underscored GAO's statutory right to access, to conduct our 
works. That was much appreciated.
    Secondly, we are dogged and persistent in pursuit of our 
oversight responsibilities. We, by and large, get what we need 
to do the work that we do for the Congress. And so, sometimes 
there are delays at the Department of Justice, but we have been 
able to work through them.
    Mr. Johnson of Louisiana. So, there is no current cases 
where this is negatively impacted your ability to conduct 
oversight of funds then?
    Ms. Maurer. Nothing materially, no.
    Mr. Johnson of Louisiana. That is it. We are grateful for 
your time today. This will conclude today's hearing and thanks 
to both of our witnesses for attending.
    Chairman Goodlatte. Without objection, all members will 
have five legislative days to submit additional written 
questions for the witnesses, or additional materials for the 
record, and this hearing is adjourned. Thank you.
    [Whereupon, at 3:32 p.m., the committee adjourned subject 
to the call of the chair.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
